No. 20–6990

IN THE
SUPREME COURT OF THE UNITED STATES

ALLYN AKEEM SMITH,
PETITIONER,
-vsSTATE OF ARIZONA,
RESPONDENT.
CERTIFICATE OF COMPLIANCE

BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/SECTION
CHIEF OF CAPITAL LITIGATION
NATE CURTISI
ASSISTANT ATTORNEY GENERAL
ELIZABETH BINGERT
(COUNSEL OF RECORD)
CAPITAL LITIGATION SECTION
2005 N. CENTRAL AVENUE
PHOENIX, ARIZONA 85004
Nate.curtisi@azag.gov
CLDocket@azag.gov
TELEPHONE: (602) 542–4686
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that this Brief in Opposition is double spaced,
uses a 12 point proportionately-spaced Century typeface, and contains 5,519 words.
DATED this 1st day of March, 2021.

s/Elizabeth Bingert
(Counsel of Record)
Capital Litigation Section

R9IH4OF40EGRHY

2

